No. 20-1767

In the
Supreme Court of the United States
Sarasota Wine Market, LLC, et al.,
Petitioners,
v.
Eric S. Schmitt, Attorney General of Missouri, et al.,
Respondents.

WAIVER OF REPLY BRIEF AND WAITING PERIOD
Pursuant to Supreme Court Rule 15(5), petitioners Sarasota Wine Market et
al notify the Clerk that they will not file a Reply brief and waive the 14-day waiting
period before the Petition for Certiorari can be distributed for conference.

This the 13th day of September, 2021

s/ James A. Tanford
James Alexander Tanford
Counsel of Record
Epstein Cohen Seif & Porter LLP
50 S. Meridian St., Suite 505
Indianapolis IN 46204
Tel: 812-332-4966
Fax: 317-638-9891
tanford@indiana.edu
Attorneys for Petitioners

